February 5, 2020
Page 2
Certificate of Service
I, Richard A. Simpson, co-counsel for Doug Winfield, Matthew Richardson, and Alan
Seevers, hereby certify that on this 5 day of February, 2020, I caused the foregoing to be served
by overnight delivery and email on the following counsel:
SCOTT G. BULLOCK
ROBERT J. MCNAMARA
(Counsel of Record)
JOSHUA A. WINDHAM
INSTITUTE FOR JUSTICE
901 North Glebe Road, Suite 900
Arlington, Virginia 22203
(703) 682-9320
rmcnamara@ij.org
Richard A. Simpson
Wiley Rein LLP
1776 K Street NW
Washington, D.C. 20006
(202) 719-7314
rsimpson@wiley.law

